o-ftoira

ORIGINAL
FILED
MAY 1 2 2021
OFFICE
OF THE CLERK
gi ipofmc cm iot m s

IN THE
SUPREME COURT OF THE UNITED STATES

DAMARI JENNINGS — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

DAMARI JENNINGS
628346, CYPRESS—1
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTIONS PRESENTED
This case involves a juvenile defendant who was coaxed into pleading
guilty, allegedly, under North Carolina v. Alford> 400 U.S. 25, 91 S.Ct. 160
(1970). In exchange for his plea, Damari Jennings (“Jennings”) was
sentenced to life with parole at hard labor. The trial court was about to reject
the plea because the State did not present a sufficient factual basis even
under North Carolina v. Alford\ and because Jennings maintained his
innocence. Jennings’s trial counsel and the State convinced the trial court to
accept the plea anyway. Jennings appealed and the state appellate court
remanded with instructions for the State to present a sufficient factual basis
and for the trial court to explain to Jennings what a life sentence in
Louisiana means which leads to the following questions:
1.

Under the requirements of Boykin v. Alabama, was Jennings
denied due process and equal protection when the trial court
refused to allow him to withdraw his guilty plea after the
appellate court’s remand?

2.

Did Jennings’s trial counsel render ineffective assistance with
his misplaced advice to plead guilty because Jennings would be
parole eligible?

3.

Did Jennings’s trial counsel’s performance fall below the Sixth
Amendment’s standard when he abdicated his duties and
responsibilities to Jennings, especially where counsel failed to
investigate the State’s case against Jennings?

u

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

Ill

TABLE OF CONTENTS
PAGE NO.
QUESTIONS PRESENTED

li

LIST OF PARTIES

m

TABLE OF CONTENTS

IV

v

INDEX TO APPENDICES

vi

TABLE OF CITED AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

6

1.

2.

Jennings’s guilty plea was not voluntarily, intelligently, or knowingly
entered contrary to the Fifth, Sixth, and Fourteenth Amendments to the
United States Constitution and Article I, §§ 2, 13 and 16 of the
Louisiana Constitution Of 1974............................................................... 6
A.

The Alleged FactualBasis Is Insufficient Because Jenninos Did
Not Accept Or Stipulate To Any Of The Alleoed Facts............. 10

B.

The Elements

of the Alleged

Offense............................................ 14

Jennings was denied the effective assistance of counsel before, during,
18
and after due proceedings were held.........
20
Mr. McCann’s Unreasonable Advice
A.
B.

Failure To Adequately Investigate....
IV

25

C.

27

Failed To Interview Witnesses

27

CONCLUSION
INDEX TO APPENDICES

Page

Exhibit
A

March 9, 2021, Judgment of the Louisiana Supreme Court

1

B

July 15, 2020, Judgment of the Third Circuit Court of Appeal

2

C

November 6, 2019, Judgments of the Third Circuit Court of
Appeal

21

D

Appeal Record Including Boykinization

51

E

Second Application for Post-Conviction Relief

161

F

Supplemental Pro Se Appeal Brief to the Appellate Court

187

G

Original Brief's of LAP Attorney to the Appellate Court

200

H

Supplemental Brief of Jones Walker, LLC to Appellate Court 239

I

State's Opposition Briefs to the Appellate Court

253

J

Writ of Certiorari to the Louisiana Supreme Court

273

K

November 26, 2019, Evidentiary Hearing

285

L

December 2, 2019, Evidentiary Hearing

295

M

L etters from L AP Attorneys

313

v

TABLE OF A UTHORITIES CITED
PAGE NUMBER

CASES
Boykin v. Alabama, 395 U.S. 238, 89 S.Ct. 1709 (1969).....

7,8,10,15,17

Bradshaw v. Stumpf, 545 U.S. 175, 125 S.Ct. 2398 (2005)..

18

Brady v. United States, 397 U.S. 742, 90 S.Ct. 1463 (1970)

9,17

Jackson v. Denno, 378 U.S. 368, 387, 84 S.Ct. 1774(1964)..

7

McCarthy v. U.S., 394 U.S. 459, 89 S.Ct. 1166 (1969)
Miller v. Alabama, 567 U.S. 460, 132 S.Ct. 2455 (2012)

17
5,10

North Carolina v. Alford, 400 U.S. 25, 91 S.Ct. 160 (1970). .3,4,5,10,17,22,25
Roper v. Simmons, 543 U.S 551, 125 S.Ct. 1183 (2005)

5,10

State ex rel Jackson v. Henderson, 260 La. 90, 255 So.2d85 (11/3/1971). .8,9,10
State v. Francis, 01-1667 (La. App. 4 Cir. 2/6/02); 809 So.2d 1132

25

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).....

18,19

U.S. v. Drones, 218 F.3d 496 (5th Cir. 2000)..................................

19

U.S. v. Herrera, 412 F.3d 577 (5th Cir.2005)...................................

18

STATUTES AND RULES
28U.S.C. § 1257(a)

1

La. R.S. 14:30.1

5
3,15

La. R.S. 15:574.4
vi

Rule 10 of the United States Supreme Court

6

Rule 13.1 of the United States Supreme Court

1

Vll

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Jennings respectfully prays that a writ of certiorari be issued to review
the order of the Louisiana Court of Appeal, Third Circuit.
OPINIONS BELOW
The order of the Louisiana Supreme Court, No. 2G20-KO-01251,
denying discretionary review appears at Exhibit A to the petition and has
been designated for publication and is reported at State v. Jennings, 20201251 (La. 3/9/21); - - So.3d -

2021 WL 870457.
JURISDICTION

The Louisiana Supreme Court entered final judgment against Jennings
March 9, 2021. As such, this Court has jurisdiction under 28 U.S.C. § 1257(a)
and Rule 13(1) of the Rules of the Supreme Court of the United States.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution provides in

pertinent part:
[N]or shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property,
without due process of law[.]
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right ...
to have the assistance of counsel for his defense.
The Eighth Amendment to the United Sates Constitution provides in
pertinent part:
[N]or cruel and unusual punishments inflicted.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
La. R.S. 14:30.1 provides in pertinent part:
B. Whoever commits the crime of second degree murder shall be
punished by life imprisonment at hard labor without the benefit
of parole, probation, or suspension of sentence.

2

STATEMENT OF THE CASE
On September 19, 2013, Jennings was indicted by a Lafayette Parish
grand jury for 1 count of first degree murder and 1 count of attempted second
degree murder. Exhibit D, pp. 55,147. On September 2, 2014, Jennings, on
the advice of counsel, withdrew his formal pleas of not guilty to the charged
offenses and entered pleas of guilty under North Carolina v. Alford, 400 U.S.
25, 91 S.Ct. 160, 27 L.Ed.2d 162 (1970) to 1 count of second degree murder
and 1 count of aggravated battery. The State and Jennings’s counsel stipulated
that if a Miller hearing was held, Jennings would be considered eligible for
parole under La. R.S. 15:574.4(E). Jennings was sentenced to concurrent
hard labor sentences of life with parole for second degree murder and 10
years at hard labor for aggravated battery—1 year to be served without
benefits. Exhibit D, pp.81-85.
On February 18, 2016, Jennings filed an Application for Post-Conviction
Relief (“ APCR”) requesting an out-of-time appeal and raised a claim of
ineffective assistance of counsel. The trial court granted the APCR for an
out-of-time appeal and deemed the other portions of the APCR premature.
The trial court appointed the Louisiana Appellate Project (“LAP”) to
represent Jennings. Exhibit D, pp. 108-120.

3

In a letter dated December 29, 2016, Mr. Bauman wrote Jennings and
sent him a copy of a letter from the former executive director of LAP. Both
letters asked Jennings what did he expect to gain by filing an out-of-time
appeal. Mr. Bauman told Jennings there was nothing he could do that would
affect his convictions or sentences because he pleaded guilty. Exhibit M, pp.
313-15. The Third Circuit disagreed with Mr. Bauman and remanded
Jennings’s case to the district court for an evidentiary hearing to:
... [1] allow the State the opportunity to present a sufficient
factual basis for the offenses. [2] The trial court is also instructed
to explain to Defendant the life sentence for second degree
murder, including that it must be served at hard labor, [and 3]
Thereafter, the trial court is instructed to determine whether
Defendant’s pleas were entered knowingly, intelligently, and
voluntarily based on the circumstances.
Exhibit C, p. 49.
Having been thus advised at the evidentiary hearing, Jennings sought
to withdraw the second degree murder guilty plea; however, he was not
allowed to withdraw the spurious Alford plea—which should have been
integral part of the trial court’s determination of whether his pleas were
entered knowingly, intelligently and voluntarily. Jennings’s aggravated battery
plea can be considered a true Alford plea because it offered a choice among
the alternative of attempted second-degree murder. The second-degree

4

murder plea does not represent an alternative, among other choices, at all. In
its initial review of this case, the appellate court noted:
Moreover, Defendant did not receive a significant benefit from
his plea to second degree murder. Defendant was originally
charged with first degree murder but could not receive the death
penalty since he was under eighteen at the time the offense was
committed. Roper v. Simmons, 543 U.S 551, 125 S.Ct. 1183 (2005).
Additionally, Defendant’s age prohibited a mandatory life sentence
without the possibility of parole. Miller v. Alabama, 567 U .S. 460,
132 S.Ct. 2455 (2012). Thus, Defendant’s sentence would have
been the same under either first degree murder or second degree
murder... .In addition to Defendant’s young age, protestations of
innocence, and the minimal benefit he received from pleading
guilty, Defendant asserts that his guilty pleas were unconstitutional.
Exhibit C, pp. 39,40.
The illegal 1-year without benefits prohibition on Jennings’s 10-yearsentence for aggravated battery was removed. On November 26, 2019, and
December 2, 2019, the district court conducted an evidentiary hearing: the
hearings did nothing to correct the mistake of allowing a sixteen-year-old,
arrested at fifteen, to plead guilty to second degree murder, allegedly, under
North Carolina v. Alford, 400 U.S. 25, 31, 91 S.Ct. 160, 164 and sentenced
to life with parole (which is not a valid sentence under La. R.S 14:30.1). The
State, however, was granted an opportunity to present an alleged sufficient
factual basis for both offenses.

5

Jennings’s trial counsel rendered ineffective assistance when he
influenced a sixteen-year-old boy to plead guilty because it was, allegedly,

in his best interests. Under the facts before the Court, it is clear, Jennings’s
trial and appellate counsels have rendered ineffective assistance.
On December 2, 2019, the trial court determined that Jennings’s guilty
pleas were knowingly, voluntarily, and intelligently made. Exhibit L, p. 310.
On July 15, 2020, the appellate court ultimately agreed with the trial court
and denied Jennings’s direct appeal of this matter. Exhibit B, p. 20. The
Louisiana Supreme Court denied Jennings’s writ application on March 9, 2021.
Exhibit A, p. 1. This instant petition for a writ of certiorari timely follows.
REASONS FOR GRANTING THE WRIT
Under Rule 10, the Louisiana courts have denied relief contrary to
decided important questions of federal law that has been settled by this Court
and further decided important federal questions in ways that conflicts with
relevant decisions of this Court as set forth below:
1.

Jennings’s guilty plea was not voluntarily, intelligently, or knowingly
entered contrary to the Fifth, Sixth, and Fourteenth Amendments to the
United States Constitution and Article I, §§ 2, 13 and 16 of the
Louisiana Constitution Of 19 74.
On remand, the district court was instructed to allow the State to

present a sufficient factual basis for the offenses Jennings pleaded guilty to.

6

The court was also instructed to explain what a life sentence in Louisiana
means because Jennings said his court-appointed counsel told him he would
be released after he turned twenty-one. The court was further instructed to
determine if Jennings’s pleas were knowing, intelligent and voluntary. See
Exhibit C. The trial court did not follow the appellate court’s instruction.
This Court has said a guilty plea “is more than a confession which
admits that the accused did various acts” because the plea itself is “a
conviction[.]” Accordingly, the “[ajdmissibility of a confession must be based
on a ‘reliable determination on the voluntariness issue which satisfies [a
defendant’s constitutional rights’[.]” Boykin v. Alabama, 395 U.S. 238, 242,
89 S.Ct. 1709, 1711-12, 23 L.Ed.2d 274 (1969) citing Jackson v. Denno, 378
U.S. 368, 387, 84 S.Ct. 1774, 1786, 12 L.Ed.2d 908.
This honorable Court has also said that there are several federal
constitutional rights involved in a waiver when a defendant pleads guilty in
a state criminal trial: (1) the privilege against compulsory self-incrimination;
(2) the right to a jury trial; and (3) the right of confrontation. The Court
concluded that “a waiver of these three important federal rights” cannot be
presumed from a silent record.” Boykin v. Alabama, 395 U.S., at 242-3, 89
S.Ct., at 1712.

7

The record in this case unequivocally establishes that Jennings
maintained his innocence and said he only pleaded guilty because his
attorney told him it was the best option. Exhibit D, pp. 80-82. In fact,
Jennings informed the trial court in a letter that he was informed by his
counsel that he would be released when he turned twenty-one-years-old.
Exhibit D, p. 127. Moreover, during the Boykinization, the trial court asked
Jennings if he was asking the court to accept his “guilty plea to second
degree murder as a juvenile.” Exhibit D, p. 81. The record further
establishes that the State did not present a sufficient factual basis for the
trial court to even accept the guilty pleas in the first place; and, after the
matter was remanded, the trial court allowed the State to present what is
being called a sufficient factual basis without conducting an examination,
with Jennings, under Boykin v. Alabama, supra. In Stale ex rel Jackson v.
Henderson, the Louisiana Supreme Court, adopting the Court’s Boykin
holding, said:
The high court further noted that the trial judge must make sure
that the accused ‘has a full understanding of what the plea
connotes and of its consequence’. 395 U.S. 244, 89 S.Ct. 1712.
It further quoted with approval the observation that, if guilty
pleas “are to be insulated from attack, the trial court is best
advised to conduct an *** examination of the defendant which
should include, inter alia, an attempt to satisfy itself that the
defendant understands the nature of the charges, his right to a
8

jury trial, the acts sufficient to constitute the offenses for which
he is charged and the permissible range of sentences.”
State ex rel Jackson v. Henderson, 260 La. 90, 255 So.2d 85 (11/3/1971).
The trial court failed to follow clearly established precedence. This
honorable Court has further noted that it has long been recognized that:
... a guilty plea is a grave and solemn act to be accepted only
with care and discernment ... Central to the plea and the
foundation for entering judgment against the defendant is the
defendant’s admission in open court that he committed the acts
charged in the indictment. He thus stands as a witness against
himself and he is shielded by the Fifth Amendment from being
compelled to do so—hence the minimum requirement that his
plea be the voluntary expression of his own choice. But the plea
is more than an admission of past conduct; it is the defendant’s
consent that judgment of conviction may be entered without a
trial—a waiver of his right to trial before a jury or a judge.
Waivers of constitutional rights not only must be voluntary but
must be knowing, intelligent acts done with sufficient awareness
of the relevant circumstances and likely consequences.
Brady v. United States, 397 U.S. 742, 748, 90 S.Ct. 1463, 1468-69, 25
L.Ed.2d 747 (1970) (internal citations omitted).
Jennings never admitted guilt to either of the charged offenses and
unlike the defendant in Brady, his “plea of guilty [was] invalid” on all scores.
Id., 397 U.S., at 748, 90 S.Ct., at 1439. After the appellate court’s remand,
although that court did not vacate Jennings’s convictions or sentences, the
remand effectively reset the stage for the trial court to determine whether
Jennings’s guilty pleas were constitutional. In other words, the district court
9

was re-tasked with satisfying itself that Jennings understood the nature of the
charges against him, “his right to a jury trial, [and] the acts sufficient to

constitute the offenses for which he is charged and the permissible range of
sentences.” State ex ret Jackson v. Henderson, supra citing Boykin v.
Alabama, supra.
A.

The Alleged Factual Basis Is Insufficient Because Jennings Did
Not Accept Or Stipulate To Ant Of The Alleoed Facts.

As an initial matter, Jennings maintains his innocence on both counts;
however, he cannot dispute his gain from pleading guilty under North
Carolina v. Alford to aggravated battery. As the Louisiana Third Circuit
Court of Appeal noted:
... Defendant did not receive a significant benefit from his plea
to second degree murder. Defendant was originally charged with
first degree murder but could not receive the death penalty since
he was under eighteen at the time the offense was committed.
Roper v. Simmons, 543 U.S 551, 125 S.Ct. 1183 (2005).
Additionally, Defendant’s age prohibited a mandatory life
sentence without the possibility of parole. Miller v. Alabama,
567 U.S. 460, 132 S.Ct. 2455 (2012). Thus, Defendant’s
sentence would have been the same under either first degree
murder or second degree murder... .In addition to Defendant’s
young age, protestations of innocence, and the minimal benefit
he received from pleading guilty, Defendant asserts that his
guilty pleas were unconstitutional.
Exhibit C, pp. 39,40.

10

On November 26, 2019, the trial court conducted the first of 2
hearings to determine if Jennings's pleas were knowingly, intelligently and
voluntarily entered. The court asked the State “to provide a factual basis.”
Exhibit K, p. 286. The State then informed the trial court of what “the State
would prove” and entered a copy of the plea agreement into the record.
Jennings's counsel did not object. Exhibit K, pp. 286-88. The State then
informed the trial court of what it would prove against Jennings in a trial:
ADA Hamilton: Your honor, the State would prove that on or about August
8, 2013, the defendant in this matter, Damari Jennings,
Docket Number 143443, committed aggravated battery.
The State would prove that on or about August 8, 2013,
the defendant in this matter was here in Lafayette Parish
where he passed a group of individuals. For no known
reason one of the subjects produced a chrome semi­
automatic pistol and fired one round at the victim. The
suspect fled the location and the victim called 911 for
assistance. The victim left the area and was located at the
comer of St. Mary and St. Landry Street. The subject was
found to have a gunshot wound to the left side of his face
and his shirt was covered in blood. When questioned, the
victim, which was Tannel Gentaly, advised that the
subject, a black male with a short Afro produced a small
semi-automatic handgun and put it up to his face. The
male shot him in the jaw and the group fled the location.
The victim upon getting medical treatment, the doctor
advised that there was a small caliber projectile lodged in
the left side of his jaw. The jaw had several minor
fractures as a result of the gunshot and they transferred
him to repair his jaw. Upon getting a search warrant of
where Damari Jennings, the defendant, was residing they
found a 25 caliber semi-automatic handgun. The weapon
11

matched the one described by Mr. Wiltz. It also matched
the round that was found in the victim during the medical
treatment. Upon doing a lineup for Damari Jennings, the
victim came into the lineup and identified Damari
Jennings as the shooter. The State will also file and
introduce as State’s Exhibit number 2, a copy of the Crime
Lab report showing the ballistics testing, and also a copy
of the Lafayette Police Department’s report which is
State’s Exhibit number 3. And also a copy of the plea
agreement, which is State’s Exhibit number 4.
AD A Hamilton; Your honor, in Docket Number 143444, the State would
prove that on or about the date alleged in the bill of
information, Corporal Britney Dugas was dispatched to the
1100 block of Madeline Street here in Lafayette Parish and
advised that there was a white female lying near the coulee
covered in blood. The officers coming to the scene
discovered a white female was lying face up on the
sidewalk covered with blood near the coulee. The deputy
officer observed what appeared to be a gunshot wound to
her facial area near the left eye. The victim was obviously
deceased. Upon doing an investigation officers received
the tip that a juvenile named Damari Jennings had told
several of his friends that he murdered the victim in this
case, Miss Connie Birch. Upon doing further investigation
officers located on social media, namely Facebook, they
researched Damari Jennings’s location and it was
determined to be anon-private and open to the public.
Investigations located multiple images of Damari
Jennings, the defendant, holding a Beretta, a handgun, as
well as what appears to be a 25 caliber handgun. And the
shooting occurred on August 18, 2013. Upon officers
interviewing Joseph Broussard with his mother present on
August 21, 2013, Mr. Broussard indicated that he was
present and witnessed Damari Jennings shoot Ms. Birch in
the back of the head. The statement was very detailed and
specific and included unreleased details such as the color
12

of her cell phone and her clothing as well as the fact that
she was wearing glasses when she was shot. Joseph
Broussard also described the handgun as being black;
however* he was unable to state the caliber. He said that he
observed Damari Jennings, the defendant, remove Ms.
Birch's telephone, cell phone, cellular phone and a bottle
of Xanax pill from her body before they fled northward
toward West Willow Street. Joseph stated that while
fleeing the scene he witnessed the defendant toss the cell
phone in field off of Mission Drive, which was eventually
found by the detectives. And the State would also offer,
file, and introduce State's Exhibit Number 5 into the
record at this time, as the Lafayette Police Department
report. As State's Exhibit Number 6 we would offer, file,
and introduce the plea agreement between the State and
the defendant. We would also offer, file, and introduce the
Crime Lab report and the Juvenile Arrest report as State’s
Exhibit Numbers 6,7, and 8, I believe.
Exhibit K, pp. 286-88,289,290.
The court asked the State several questions in response to the
allegations:
Can you tell me you have a photo lineup of the victim identifying him
as the shooter? You have the gun found in his room or in his
possession? And you have sufficient evidence on file, including
evidence such as the sunglasses or the cell phone, the lineup, all
showing that Damari Jennings was the shooter in both instances. So,
for each crime you have a direct eye-witness to the crime identifying
Damari Jennings as the shooter?
Exhibit K, p. 290.

13

Afterward, the court turned to Jennings’s collateral counsel (“Mr.
Benezech”) who informed the court that Jennings “would like to dispute the
charge of second degree murder.” Exhibit K, p. 290. The court responded:
The Court;

Well, that’s not what we’re here for today, though. As of
right now I’m filing a review of the transcript, as well as
what the State has found this morning, [sic] the factual
basis for both charges under the Docket Numbers with the
aggravated battery and the second degree murder. We have
also, according to the instructions, explained that
defendant has a life sentence for second degree murder
and that life sentence must be served at hard labor.

Exhibit K, p. 290.
B.

Jennings Did Not Admit Guilt Or Consent To The Trial Court’s
Judgment

of

Conviction.

As stated above, Mr. Benezech informed the trial court that Jennings
wanted to dispute the second degree murder allegation. After rejecting
Jennings’s protestation of innocence, the trial court said it would explain to
Jennings that “second degree murder must be served at hard labor.” The
court further claimed it should have been “abundantly clear [to Jennings]
from the previous sentencing.” Exhibit K, p. 291. Jennings, however, was
sixteen-years-old at that previous sentencing; and, if adult criminals have a
problem understanding the legal system, then no one can truly expect a boy
(who had just turned sixteen) to understand it either. And as mentioned

14

earlier, during the initial Boykinization, the understanding (at least from
Jennings’s perspective) was that he was pleading guilty as ajuvenile under a
particular law that would grant him parole because he was ajuvenile. See
Exhibit D, p. 81. The trial court had the duty of determining if Jennings
actually knew what he was pleading guilty to—especially when he maintained
his innocence. Still, the State asked the trial court to “take judicial notice on
his plea agreement that was signed on the second degree murder case” and
claimed a sixteen-year-old boy understood that he was being sentenced
under La. R.S. 15:574.4. Exhibit K, p. 291. The State then argued that:
[Jennings’s] parole as an adult was contemplated in the plea and
explained to him by Mr. McCann ... he understood the statute that was
in place at the time [he] took the plea and as a result of that, he
shouldn’t be able to come here and complain now that he doesn’t
understand what’s going on.
Exhibit K, p. 291.

The trial court responded that;
Well, Judge Everett did a - - what I think is a very good job of
explaining and going through it. Looking at the colloquy, he told to
him - - I mean, the fact that it was written on the plea form there was
contemplated a Miller hearing, although the Miller hearing would be
dispensed with, and that the defendant indicated in the transcript that
he understood and went through with it. And, likewise, I don’t note
any objections unless I’m missing something somewhere, to the
sentence that was imposed.
Exhibit K, pp. 291-92.
15

First of all, the State was not privy to the discussion between Jennings
and his trial counsel. Secondly, the trial court, after a brief discussion with

the State and Mr. Benezech, said it was constrained to follow the appellate
court's instruction to “determine whether there was a knowing and
intelligent and voluntary plea.” Exhibit K, pp. 291-92. The trial court did
not perform this task. The court did not even ask Jennings if he agreed to the
new alleged facts presented by the State even after the appellate court noted,
the initial factual basis presented to Judge Everett was not sufficient. Cf.
Exhibit C, p. 49. When Judge Everett asked Jennings what he did, Jennings
said he did not do anything. See Exhibit D, pp. 81-82. In fact, the only
reason he pleaded guilty was because his trial counsel said it was his best
option and he thought would be released under a juvenile law that allowed
him to serve juvenile life. In determining if Jennings’s guilty plea was
knowing and voluntary, the trial court said:
I have to determine despite the policy, and the good policy by Judge
Everett, I may add. I think what we have to do is have Mr. McCann,
who will testify as to his knowledge of what transpired ... or [what he]
told to the defendant in order to see if it was knowing, intelligent, and
voluntarily made. I mean, at this point I don’t have any evidence that
the defendant was threatened. It didn't appear by the transcript that
he was threatened or coerced into this plea. The colloquy by Judge
Everett seems to be an intelligent colloquy by the defendant. And it
seems to run the depth. I believe at this point from the transcript,

16

that it was a knowing and intelligent plea. But I will out of an
abundance of caution allow Mr. McCann to testify [.]
Exhibit K, pp. 292-93 (emphasis added).
The trial court’s appreciation of Jennings’s Boykinization is erroneous.
If the initial guilty plea was flawless, the appellate court would not have
remanded the matter.
A guilty plea operates as a waiver of important rights and is valid only
if done voluntarily, knowingly and intelligently “with sufficient awareness
of the relevant circumstances and likely consequences.” Brady v. United
States, 397 U.S. 742, 748, 90 S.Ct. 1463, 25 L.Ed.2d 747 (1970). The
longstanding test for determining the validity of a guilty plea is “whether the
plea represents a voluntary and intelligent choice among the alternative
courses of action open to the defendant.” North Carolina v. Alford> 400 U.S.
25, 31, 91 S.Ct. 160, 164, 27 L.Ed.2d 162 (1970). “Moreover, because a guilty
plea is an admission of all the elements of a formal criminal charge, it
cannot be truly voluntary unless the defendant possesses mi understanding
of the law in relation to the facts.” McCarthy v. U.S., 394 U.S. 459, 466, 89
S.Ct. 1166, 22 L.Ed.2d 418 (1969). “Where a defendant pleads guilty to a
crime without having been informed of the crime’s elements, this standard is

17

not met and the plea is invalid.” Bradshaw v. Stump/, 545 U.S. 175, 183, 125
S.Ct. 2398, 162 L.Ed.2d 143 (2005).

The incarceration of a fifteen-year-old child to an adult institution for
the remainder of his natural life, even with the possibility of parole, is
nothing more than death by incarceration and is violative of the Eighth and
Thirteenth Amendments to the United States Constitution—especially where
the conviction was contrived contrary to the Sixth and Fourteenth Amendments
to that same constitution. Jennings's guilty plea to second-degree murder
was not voluntary, knowing or intelligent in light of his attorney's inaccurate
and unreasonable advice. “A defendant cannot make an intelligent choice
about whether to accept a plea offer unless he fully understands the risks of
proceeding to trial.” U.S. v. Herrera, 412 F.3d 577, 580 (5th Cir.2005).
2.

Jennings was denied the effective assistance of counsel before,
during, and after due proceedings were held.
A claim of ineffective assistance is assessed under the familiar two­

pronged standard established in Stricklandv. Washington, 466 U.S. 668, 104
S.Ct. 2052 80 L.Ed.2d 674 (1984). A defendant must show that there is a
reasonable probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different. A reasonable probability
is a probability sufficient to undermine confidence in the outcome.
18

Representation of a criminal defendant entails general duties of loyalty and
advocacy of the client’s cause and more particularized duties to consult and
inform the defendant of important developments throughout the prosecution
and to conduct a thorough investigation of law and facts relevant to plausible
options. Strickland, 104 S.Ct., at 2064-2065.
Because the temptation to rely on hindsight is strong in failure to
investigate cases, this honorable Court has said that “strategic choices made
after thorough investigation of law and facts relevant to plausible options are
virtually unchallengeable.” Id., 460 U. S., at 690. However, “strategic choices
made after less than complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the limitations on
investigation. Counsel has a duty to make reasonable investigations or to
make a reasonable decision that makes particular investigations unnecessary.”
Strickland, 460 U. S., at 690-91. Strickland does not require deference to
decisions that are uninformed by an adequate investigation into the
controlling facts and law. U.S. v. Drones, 218 F.3d496, 500 (5th Cir. 2000).
Concerning this claim, the appellate court relegated the matter “to post­
conviction relief, where an evidentiary hearing may be held to determine the
validity of [Jennings’s] claims.” Exhibit B, p. 20. However, this could have

19

been determined at the evidentiary hearing the apellate court ordered
because Jennings’s counsel was there. In the interest of justice and judicial
economy all parts of Jennings’s ineffective assistance claim could have
been addressed at the 2 part evidentiary hearing. In fact, either directly or
indirectly, the claim was addressed.
A.

Mr. McCann's Unreasonable Advice.

Mr. McCann testified that he “negotiated a plea from the standpoint of
the benefit to [Jennings] as a juvenile ” Exhibit L, p. 297. Mr. McCann
acknowledged the significant benefit Jennings received when he pleaded
guilty to aggravated battery versus an attempted murder conviction. He said:
“[t]he first degree murder case got reduced to a second degree murder case
which really didn’t change that much, but that the State stipulated that he
didn’t have to go through the risk of a Miller hearing.” Exhibit L, p. 298.
Mr. McCann said he was worried Jennings would not farewell in a trial or a
Miller hearing because he was accused of being involved in 2 crimes of
violence in a short period of time. See Exhibit L, pp. 298-99. According to
Mr. McCann, just the mere possibility (no! guarantee) that Jennings would
be released from prison removed the risk of him being denied parole
eligibility by a judge sometime in the future. He said:

20

Now, in retrospect, is it the best circumstance? I don’t know. But it’s, I
mean, having the ability to know you’re going to have a parole
hearing, in my humble opinion is a good thing because you don’t have
to particularly worry about what a trial judge would do twenty years
down the road. And that’s the type of conversation I had with Mr.
Jennings. All right. Now, I do recognize that at the time he was sixteen
years old, you know. And I thought it was explained fairly well. And
he didn’t seem to have any difficulty getting through the proof. And
he knew that it was a best interest plea. And he also said in the
colloquy that he did it because he thought it was his best option
because the evidence might be sufficient enough to convict him. And I
certainly thought that he understood quite well.
Exhibit L, p. 300.
First of all, Jennings did not say it was “his best option.” He told the
court it was “the” best option because of what Mr. McCann had told him.
Secondly, if Mr. McCann was talking to Jennings about what a judge may or
may not do twenty years into the future, there is no guarantee that Jennings
was not confused about what his counsel was telling him. During crossexamination, Mr McCann said he did not even remember speaking to
Jennings’s parents or anyone else in his family. He also admitted that if
Jennings had gone to trial, and convicted, a Miller hearing would have been
conducted to determine if he was incorrigible. According to Mr. McCann,
Jennings benefited enough when he was made parole eligible without the
necessity of a Miller hearing. In reality, Mr. McCann was the beneficiary
because he did not have to effectively advocate for his client. When Judge
21

Everett was on the verge of rejecting the so-called Alford plea, Mr. McCann
joined in with the prosecutor to convince the court to accept the plea:

THE COURT: You are asking me to accept your guilty plea to second
degree murder as a juvenile; is that right, sir?
JENNINGS: Yes, sir.
THE COURT: Do you understand that to convict you at trial the State
of Louisiana would have to prove that in Lafayette
Parish you did commit a homicide with the specific
intent to kill or cause great bodily harm? Do you
understand that?
JENNINGS: Yes, sir.
THE COURT: And do you further understand that if I accept you plea,
you will stand convicted of this crime and as a result
you would be sentenced to a term of imprisonment for
life with parole considerations, according to a particular
law in Louisiana which is 15:574.4; is that right, sir?
JENNINGS:

Yes, sir.

THE COURT: Tell me what you did.
JENNINGS: Nothing.
THE COURT: Well, sir, I know Mr. Hamilton is not here but
somebody has to give me a factual basis if he’s going
to say nothing. Sir, you are pleading guilty to this charge.
Is there a reason why you won’t say anything about it?
JENNINGS: No, sir.
THE COURT: Then why don’t you tell me what you did?
JENNINGS:

I was accused of shooting two people.

THE COURT: All right, sir. And did you kill someone?
JENNINGS: No, sir.
THE COURT: No, sir? All right, sir. Why are you pleading guilty,
young man?
22

JENNINGS:

It’s the best option.

THE COURT: Explain that to me, please.
JENNINGS:

(No response)

THE COURT: What do you mean? What do you mean?
JENNINGS:

They found evidence but I still didn’t do it, but they
found evidence.

THE COURT: Does the State of Louisiana have any evidence to—can
you provide me with a factual basis for the plea?
THE STATE: Yes, sir, your honor. At trial the State of Louisiana
would prove that on or about August 18, 2018, Damari
Jennings did commit an act of first degree murder of
one Connie Burch in violation of the provisions of
Louisiana Revised Statutes 14:30. Do you want to know
the evidence, your honor.
THE COURT: Well, sir, I know what the bill of information or the
indictment says but I need more than just the charge.
I need a factual basis before I can accept a plea or even
a best interest plea.
DEFENSE:

There was an eye witness and there was a murder
weapon found in his bedroom.

THE STATE: And forensics came back from the Acadiana Crime Lab
on the murder weapon which was found in his room. At
the crime there was a 40 caliber cartridge that was
found right next to the victim and that when they found
the gun in his room, it came back as positive, having
been fired from the gun which he was found in
possession of.
THE COURT: Any additional forensics on the weapon?
THE STATE: No, sir.
THE COURT: None was done or—
DEFENSE: None was found. There were no forensics done that
would have excluded him but the eye witness puts him
23

there. And under those circumstances and under the
circumstances of the parole offer, the parole eligibility,
it is considered to be a best interest plea.
***

DEFENSE:

Judge, let me put some additional information in the
record to make the court feel better and/or other
purposes. The circumstances were similar. There was a
second eye witness that saw the other shooting. That
weapon was a 25 caliber and it was also found with the
same search warrant in Mr. Jennings' bedroom. So, the
404B inclusive of the eye witness of the homicide
would have made defending this case very difficult.

THE COURT: Right. Under those circumstances, Mr. Jennings, I will
accept your plea and adjudicate you guilty. I find you
made a knowing and intelligent waiver of the rights
previously explained to you and that your plea is freely
and voluntarily given without threats or inducements to
you whatsoever.
Exhibit D, pp. 81-83,84,85.
Considering the above colloquy, Mr. McCann's claim that he was taken
offguard by the appellate court’s decision, is amazing. He said Jennings was
never treated like a child: and sadly he is right. Cf. Exhibit L, pp. 304-06.
When asked by the trial court if he explained the difference between being
charged as an adult versus ajuvenile to Jennings, Mr. McCann said he did
not know if he “necessarily explained it that way because it was not an
issue that was ever brought up.” Exhibit L, p. 304. He then told the court
that Jennings knew life meant life. Mr. McCann justified his deficient
24

performance by explaining he thought Jennings “was a relatively intelligent
person.” Exhibit L, p. 305. He further claim that:
... the Criminal Justice System is complicated. When you throw in the
Miller v. Alabama mix, [sic] it’s complicated. When you have two
different cases all pending at the same time, it’s complicated. But I
think that, based upon the conversations that I had with him and the
language that he used with Judge Everett when the plea was done, he
certainly seemed to understand what was happening. Or we wouldn’t
have done it.
Exhibit L, p. 305.
Mr. McCann’s assertion is false. As argued above, Judge Everett was
on the verge of rejecting Jennings’s alleged Alford plea and Mr. McCann
helped him to reconsider. See Exhibit D, pp. 15-17.
B.

Failure To Adequately Investigate.

Adequate investigation is a requisite of effective assistance. State v.
Francis, 01-1667 (La App. 4 Cir. 2/6/02); 809 So.2d 1132. Mr. McCann
failed to do a pre-trial investigation and abridged Jennings’s fundamental
right to effective representation. Mr. McCann’s failure to advocate on
Jennings’s behalf resulted in Jennings being deprived of his right to present
a defense. In other words, Jennings was abandoned by the very one who was
tasked with advocating on his behalf. Jennings would not have pled guilty,
over his protestations of innocence, had Mr. McCann investigated the State’s

25

allegations against him. It does not look good that physical evidence was
found in Jennings’s bedroom; however, there are rational, if not reasonable,

explanations for the presence of weapons used in these crimes to be found in
Jennings's bedroom. For instance, he had the guns because he did not know
they were used in crimes prior to his taking possession of them. Also, Mr.
McCann’s claim that the State had two different eye-witnesses who claims
to have saw Jennings shoot the victims in this matter does not qualify as
justification for not investigating. It is well known that, for whatever
reasons, witnesses can and will lie. Some people have ulterior motives for
placing and shifting responsibility on people other than themselves or the
people they are trying to protect. At any rate, whether either of the witnesses
would be believed was a matter that should have been decided by a twelvemember jury and not by Mr. McCann.
Under prevailing professional norms, Mr. McCann’s advice for
Jennings to plead guilty, over his protestations of innocence, was violative
of the Sixth Amendment’s guarantee of the right to the effective assistance
of counsel because counsel further failed to subject the State s case to any
adversarial testing.

26

■f

C.

Failed To Interview Witnesses.

Jennings told Mr. McCann there were witnesses who would have
testified he was somewhere else when each of the shootings were said to have
occurred. These witnesses were willing to come forward. Jennings still does
not know if the witnesses are still able or willing to come forward or if they
even remember what happened. Kayla Prejean, however, is still willing to
cooperate.
CONCLUSION
For the foregoing reasons Jennings’s petition for a writ of certiorari
should be granted.
Respectfully submitted,

Damari Jennies
Date: May 12, 2021

27

